<html>
<title> - UPDATE ON LEBANON</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                           UPDATE ON LEBANON

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2009

                               __________

                           Serial No. 111-22

                               __________

        Printed for the use of the Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-330PDF                 WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
                David Adams, Subcommittee Staff Director
         Howard Diamond, Subcommittee Professional Staff Member
           Mark Walker, Republican Professional Staff Member
                   Dalis Blumenfeld, Staff Associate













                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Jeffrey D. Feltman, Acting Assistant Secretary, 
  Bureau of Near Eastern Affairs, U.S. Department of State 
  (former United States Ambassador to Lebanon)...................    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     4
The Honorable Jeffrey D. Feltman: Prepared statement.............    13

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    34
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    38

 
                           UPDATE ON LEBANON

                              ----------                              


                        TUESDAY, MARCH 24, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:14 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Gary L. 
Ackerman (chairman of the subcommittee) presiding.
    Mr. Ackerman. The committee will come to order.
    Among the great speeches in American history is President 
Kennedy's inaugural address in 1960. With the Cold War 
accelerating toward a catastrophe that almost came in October 
1962, Kennedy proposed a new beginning. Addressing ``those 
nations who would make themselves our adversary'' the President 
offered ``not a pledge but a request: That both sides begin 
anew the quest for peace.''
    Cognizant that cynics might misunderstand his intent, 
President Kennedy reminded all those listening, ``that civility 
is not a sign of weakness, and sincerity is always subject to 
proof. Let us never negotiate out of fear. But let us never 
fear to negotiate.''
    These simple words convey the character of American foreign 
policy properly understood, and were echoed recently by 
President Obama who promised even ``those who cling to power 
through corruption and deceit and the silencing of dissent'' 
that ``we will extend a hand if you are willing to unclench 
your fist.''
    I am pleased today that we are joined by Acting Assistant 
Secretary of State Jeffrey D. Feltman, who returned recently 
from an effort to put into action this approach to our national 
security. If anyone can deliver the message that engagement 
with Syria will not be paid for in Lebanese coin--and this is a 
message that needs to be repeated again and again--it is 
Ambassador Feltman.
    America's interests in Lebanon can easily be summed up: 
Sovereignty, independence, and territorial integrity. We want 
Lebanon to be ruled by the Lebanese, for the Lebanese. A 
pluralistic democracy in landscape mostly occupied by strongmen 
and tyrants, Lebanon is, sadly, a canary in the Middle East 
coal mine. If Lebanon can be free; if Lebanon can find space 
for all the different voices and religions and convictions 
within it; if Lebanon can continue to exist with one foot in 
the West and the other in the Arab world; if Lebanon can simply 
be a normal country and not a battleground for outside powers; 
then our interests, and I think those of most Lebanese, will be 
fully satisfied.
    We seek a partner, not an outpost. We want an ally, not a 
proxy. And we must continue to aid those Lebanese committed to 
their country's freedom from foreign rule or domination.
    Lebanon is approaching a crossroads. The elections which 
will take place in June will have a powerful effect on the 
country's future, and I believe that we and Lebanon's friends 
in the international community must be vigilant and active in 
the days leading to the contest.
    The real work of winning the election must be done in 
Lebanon by the Lebanese. It is their campaign to run, it is 
their future on the line, and it is their message that must 
resonate with their electorate. One side can offer a future of 
peace and prosperity. The other can promise only dogma and 
destruction. But unless the forces of progress achieve real 
coordination and meaningful compromise with each other, their 
prospects, both before and after the election, will be greatly 
diminished.
    The United States cannot and should not interfere in the 
election. The campaign and the election are for the Lebanese to 
succeed or fail in on their own. But neither should we be 
impassive. There is much that we can do and should do on the 
outside to demonstrate that Lebanon's future is not dependent 
on either militias or mullahs.
    The Special Tribunal for Lebanon has begun, and the United 
States must continue to be a strong advocate for this body. 
More significantly, in addition to providing funds for its 
operation, American diplomats, in every country and context, 
must continue to insist on the Tribunal's continued importance 
and on the validity of its work. Especially in the Middle East, 
there is a tendency to believe that there is a reality behind 
reality. So, in word and deed we must continue to make clear 
that there is no deal on the Tribunal, and there will be no 
deal on the Tribunal. Period. Full stop.
    We need to continue and enhance our support for the 
Lebanese Armed Forces, the LAF, and the Internal Security 
Forces, the ISF. These institutions enjoy strong support 
throughout Lebanon, and have a pressing mission in battling 
terrorists activated and armed by foreign powers. I am a strong 
proponent of maintaining Israel's Qualitative Military 
Advantage, but there is nothing that we are providing to the 
LAF and the ISF that has, or will, endanger Israel's defense 
capabilities.
    There is a very large space between the capabilities needed 
to effectively challenge the IDF and those needed to tackle a 
terrorist group like the Fatah al-Isam, that in 2007 held off 
the LAF for 3 months in the Nahr al-Bared camp. Even erring on 
the side of caution, something on which I would insist, the LAF 
has real needs that I believe we can help fill without 
endangering Israel.
    But we also need to look closely at the points of friction 
between Israel and Lebanon which pose a significant risk to 
regional security. One thing we should have learned about the 
Arab-Israeli conflict is that it rarely gets better on its own, 
and that problems left unresolved do not ameliorate, but 
fester. The United States needs to initiate and lead a process 
to help resolve the immediate conflicts over borders and 
territory, Lebanese air space, and locating unexploded 
munitions from 2006. Doing so will not only demonstrate that 
diplomacy works, but that American assistance can improve 
security for all sides.
    What we, and our friends in Lebanon need to offer is hope; 
not as a method for solving problems, but as a source of energy 
and a reason for continuing to struggle for something much 
better. Lebanon's future is not yet written; it does not have 
to be one of civil war and foreign conflict. Lebanon's best and 
brightest should not have to leave the country in order to live 
normal lives. Lebanon's landscape does not need to be scarred 
with wreckage and its leaders need not live in fear of their 
very lives. None of that is necessary. But the Lebanese people 
will have to choose to make it so. And if they do, they should 
have no better partner in their efforts than the United States.
    Mr. Rohrabacher.
    [The prepared statement of Mr. Ackerman 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I am 
today sitting in for Mr. Burton who is engaging in debate on 
the floor of the House. However, I would have been at the 
hearing anyway as I am a member of the committee. So let me 
just a few thoughts in the opening statement for myself and not 
for Mr. Burton, although I am here in his place.
    Mr. Chairman, you just mentioned the concept that President 
Obama expressed during the election, it is one of the issues he 
brought up, which is not being afraid to talk to anyone, and 
let me note that Ronald Reagan had that strategy as well. 
Ronald Reagan said very clearly that we should be very nice to 
people and be willing to talk, but very tough when it comes to 
policy. And I have always agreed with that concept, but not 
being afraid to talk is something totally different than making 
sure that when you speak to a dictatorship or a group of 
gangster that you are doing so responsibly and in a way that 
will not bolster the position of those evil doers, so to speak.
    Simply expressing our openness and trying to reach out to a 
totalitarian regime will not make it better. The Iranian 
mullahs, for example, know exactly what their position is. You 
know, we are not trying to fool them and they are not trying to 
fool us, and I am afraid that by thinking that we are going to 
sway them by some sort of benevolent expressions or by 
including their own description of their regime may have 
horrible consequences.
    For example, by suggesting for the first time that the 
people of Iran are ruled by a legitimate government by calling 
it, by referring to them as the people of the Islamic Republic 
of Iran rather than just the Iranian people, perhaps what we 
have done is demoralized the very people in Iran who we want to 
have as our closest allies, and I would hope that any contact 
that we have with Syria does not make this same mistake of 
having a communication that seems to verify the legitimacy of 
the tough guys who we are talking to.
    Let me note that we have with us today a young man who led 
the demonstrations at the universities in Iran 10 years ago. He 
is a young man who has been very active in resisting and 
organizing resistance to the mullah since then, and I would 
like to just have Mr. Ruzabah please stand up. Right there, a 
young man, a courageous young man who is standing against the 
mullah dictatorship in Iran. Thank you for joining us here 
today.
    We have to make sure that people like this young man who 
live in Syria are not demoralized--who want democracy for their 
country, the people throughout the Middle East who want to have 
peace and prosperity and democracy, and want to live not only 
peace with their neighbors, but want to be part of a global 
system of harmony and justice, that we do not demoralize those 
people, and what I am afraid of is that if we try to bend over 
backwards too far with Syria, and we become just too sincere in 
our openness and expressions to the Syrian leadership, thinking 
that that is what will sway them, it will have the opposite 
impact because it will demoralize those people in Syria who too 
would like to be friends with the United States and friends of 
democracy, and live at peace with the world.
    I would suggest, first of all, to note, and this will shock 
some of my friends, that we do have to recognize that Lebanon 
was in chaos and confusion and bloodshed before the Syrian 
intervention. And if we expect the Syrians to listen to us, we 
should understand and recognize that.
    But what happens when a non-democratic government 
interferes with military force, and it did some good right off 
the bat by ending that chaos and bloodshed that was going on 
unabated in Lebanon? What happens if someone overstays their 
welcome and stays too long is eventually the situation 
deteriorates, and clearly now Syria is playing and has been 
playing for a number of years a negative, a highly negative 
role in Lebanon, and we need to tell the Syrians, and make it 
clear to them, if we are just going to talk with anybody, let 
us be tough on policy. We no longer can tolerate the type of 
assassinations and interference that Syria has been doing in 
Lebanon.
    And if there is going to be a peace, a bigger peace and a 
greater peace in the Middle East, and democracy, and there is 
going to be some kind of an order established, yes, Syria has 
to be included, but we know that it must be based on respecting 
the rights of the people of Lebanon to run their own country, 
and that has to be respected and demanded by the United States 
in our negotiations with Syria.
    With that, I am looking forward to hearing a firsthand 
report, giving us an update as to where these discussions might 
go, what are the chances for success, and the upcoming 
elections, as you mentioned, Mr. Chairman, are something that 
should--we should be making sure that we focus on those 
elections and make sure that they are a success, and that 
outside forces, like those in Syria, do not manipulate this 
turning point in Lebanese history.
    So, with that, thank you very much, Mr. Chairman. I am 
looking forward to the testimony.
    Mr. Ackerman. Thank you, Mr. Rohrabacher.
    I will just note that whenever you quote Ronald Reagan, 
knowing that you were one of his speechwriters, I do not marvel 
at the fact that you do not look down to read the quote that he 
said. [Laughter.]
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I am looking 
forward to hearing the testimony from our witness, and I will 
defer.
    Mr. Ackerman. Mr. Ellison.
    Mr. Ellison. Thank you for holding the hearing, Mr. Chair. 
I look forward to hearing from the witnesses, and I want to 
welcome the Ambassador here with us, and look forward to what 
he would have to share with us. I am particularly interested in 
the reopening of the Hariri investigation and also have an 
interest in learning about the--I guess there were two 
Palestinian leaders who were killed in Lebanon recently. I 
would like to know what the Ambassador can share with us about 
that subject, and then also what prospects for United States-
Syrian, Lebanon-Syrian relations can take place. I am anxious 
to hear about his recent trip to Syria that the administration 
sent him on.
    So, again, thank you Mr. Ambassador. I anxiously wait to 
hear your remarks.
    Mr. Ackerman. Mr. Fortenberry.
    Mr. Fortenberry. Just briefly, Mr. Chairman, to say 
welcome, Mr. Ambassador. The last time we met a number of years 
ago in Lebanon you were confined to your job, so to speak. It 
is nice to see you were able to come home. So welcome today.
    Mr. Ackerman. Mr. Klein.
    Mr. Klein. Thank you, Mr. Chairman, and thank you, 
Ambassador, for joining us today. We had the chance, the 
chairman and a number of us, to travel to Beirut a couple of 
months ago to see firsthand, meet with the military leaders, 
meet with the political leaders, and obviously look at Lebanon 
as a very interesting laboratory, a place where hopefully a 
democracy can thrive. There is a lot of good efforts going in; 
a lot of concern, of course, about the election coming up; and 
if you will, the free will of the people and if Hezbollah ends 
up with more seats in the Parliament, what impact does this 
have. The government there is quick to distinguish between the 
Hezbollah, that is, the political participant, and the 
Hezbollah which, you know, creates what many of us believe is 
the terrorist threats in he region; and would be curious as to 
a couple of questions.
    Number one, as I said, what would be the response the 
United States Government should have in the event of an 
election which Hezbollah wins a majority or controlling 
interests of the Parliament?
    Number two, what is your thinking on the mandate of UNIFEL 
and whether it is effectively preventing the rearmament of 
Hezbollah in the southern area, and what can be or should be 
done on the part of the United Nations and the United States' 
efforts in that regard?
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and again thank you 
for holding this very important hearing. We all know that after 
30 years of civil war Lebanon is actively undertaking the 
effort to build a safe and more stable state for its citizens 
with the help from the United States. It is not an easy feat 
for Lebanon whose weak military and even weaker central 
government has a lot of foreign-backed groups to set up shop 
within its borders and drag it into wars with Israel.
    Mr. Chairman, I support the notion of bolstering state 
institutions in Lebanon and encouraging reform through the use 
of foreign assistance. A stronger Lebanon should replace the 
current security vacuum which exists and allows for Hezbollah 
to thrive. But until Lebanon is in a position to productively 
manage this assistance and its institutions, I would like to be 
certain that U.S. assistance will not add to the vacuum by 
somehow reaching the hands of Hezbollah.
    In addition to supporting Lebanon, we also have to work 
with our allies to diminish the role of Syria in Lebanese 
politics and civil society. Syria, and ultimately Iran's 
financial and political influence over Hezbollah is a major 
impediment to a normal and successful Lebanese civil society.
    Lebanon is already making strides toward an active 
democracy with its parliamentary election in June, but as 
former Secretary of State Madeleine Albright said, ``Democracy 
has to deliver. People want to vote and eat.'' So the question 
is, what can be done to make the non-Hezbollah parts of the 
Lebanese Government be in a position to deliver? The United 
States must take special care to not only monitor assistance, 
but help Lebanon to eliminate corruption.
    I look forward to our distinguished guest's testimony, and 
look forward to him addressing these concerns. Again, thank 
you, Mr. Chairman, for your leadership on these issues, and I 
yield the remainder of my time.
    Mr. Ackerman. Thank you. The chair would make a unanimous 
request that the gentleman from California, Mr. Issa, be 
permitted to sit with the committee and participate as if he 
were a member of the committee. Seeing no objection, so 
ordered. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Thank you for that 
unanimous consent, and thank you for the opportunity to be back 
on a committee that I regretfully am on leave of absence from.
    In the years that I have served on the committee and the 
years that I have known the Ambassador, I found him to be fair, 
honest, and knowledgeable of the issues, first, of Israel and 
the Palestinians, then Lebanon in all its complexity and its 
mosaic of different issues, whether it is how to get Walid 
Jumblatt to be solidly with you, or in fact how to get the 
press to believe that you are pulling the strings of all the 
decisions made by all the elected and unelected officials in 
Lebanon. And if you knew how much the press loved to hate you 
as you wormed our way through a solution to the 2006 war as you 
dealt with the post-war challenges and a prime minister who 
would gladly have left for retirement if not for the continued 
support of the United States.
    So I look forward to an update on where you see opportunity 
in the Lavant. Yes, Lebanese centric would be very important, 
but as we all know Lebanon touches all of the tentacles, if you 
will, of the Middle East problems. Certainly no peace is 
possible without Syria, but certainly as long as Syria has an 
influence in Lebanon that is less than productive, no peace 
will happen in that country either, either for the people of 
Lebanon or in fact for the hundreds of thousands of 
Palestinians who have had to call refugee camps their home for 
their entire lives.
    So, Mr. Chairman, I look forward to this very knowledgeable 
ambassador who can obviously link together the challenges that 
Lebanon faces but also the challenges and opportunities within 
the region. I would ask unanimous consent to have the rest of 
my statement put in the record.
    Mr. Ackerman. Without objection.
    Mr. Issa. I yield back.
    Mr. Ackerman. Now, we could not hope to have a more expert 
witness than Ambassador Jeffrey D. Feltman. Ambassador Feltman, 
since December 18, 2008, has been the Acting Assistant 
Secretary of State in the Bureau of Near Eastern Affairs, and 
has been Principal Deputy Assistant Secretary since February 
11, 2008.
    Before that, Ambassador Feltman served for 3 years and 9 
months as the U.S. Ambassador to Lebanon. A career member of 
the U.S. Foreign Service since January 1986, before his posting 
in Lebanon, Ambassador Feltman headed the Coalition Provisional 
Authority office in Irbil, and simultaneously served as deputy 
regional coordinator for CPA's northern area. From August 2001 
until December 2003, Ambassador Feltman served as the U.S. 
Consulate General in Jerusalem, first as deputy principal 
officer and then from July 1, 2001 until September 2002, as 
acting principal officer.
    In addition to a number of staff positions in Washington, 
Ambassador Feltman has also served in Tel Aviv, Tunisia, 
Hungary and Haiti.
    So we are all delighted to welcome him back to this 
subcommittee today. Ambassador, you may proceed. Your entire 
statement will be made a part of the official record and you 
can proceed as you would.

STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ACTING ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
       STATE (FORMER UNITED STATES AMBASSADOR TO LEBANON)

    Ambassador Feltman. Mr. Chairman, thank you. I would like 
to thank you in particular for your leadership on the issue of 
Lebanon. I also would like to thank the entire committee for 
its role in supporting the concept of a free and democratic 
Lebanon. I would also like to thank the former members of the 
committee for their role in Lebanon.
    President Obama and Secretary Clinton have demonstrated our 
continuing and unwavering support for a sovereign democratic 
and prosperous Lebanon, the type of Lebanon that the members of 
this committee have just described as being our objective. And 
we continue to seek full implementation of all of the U.N. 
Security Council resolutions on Lebanon and we will continue 
our efforts to strengthen the institutions of the Lebanese 
state. We are also seeking to advance a comprehensive regional 
peace. Lebanon will play a key role in the long-term effort to 
build lasting stability and peace in the Middle East.
    Many of you have mentioned the upcoming elections. 
Lebanon's June 7th parliamentary elections offer an opportunity 
for moderate voices in Lebanon to continue their support for a 
sovereign, stable, independent and democratic Lebanon. It is 
worth noting that Lebanon alone among the Arab countries has 
two former Presidents who continue to live in Lebanon, two 
former chiefs of state who continue to live in Lebanon as a 
sign of the vibrancy of Lebanon's democracy.
    In terms of the elections, we continue to urge all parties 
to support the conduct of free, fair, and transparent elections 
unmarred by violence. With the strong support of the U.S. 
Congress, the United States has provided $10.5 million for a 
number of programs to help Lebanon improve its ability to carry 
out these fair transparent elections.
    In terms of the result of these elections, the elections 
will hinge on a handful of seats located primarily in 
Christian-dominated areas of Lebanon. How the Christian voters 
divide between the two main political blocs--the March 14th 
block and the March 8th bloc--will determine who has the 
majority in the next Parliament and the next cabinet.
    Decisions on the shape and the composition of the next 
government that will come out of these parliamentary elections 
should and can be made by the Lebanese themselves, for Lebanon, 
free from outside interference.
    In terms of our own role, we anticipate that the shape of 
the United States' assistance, the United States' policies 
toward Lebanon will be evaluated in the context of Lebanon's 
parliamentary election results, and especially by the policies 
adopted by the new cabinet.
    Some of you have mentioned the threat of Hezbollah. We 
remain extremely concerned about the role that Hezbollah is 
playing in Lebanon. The group continues to receive weapons from 
Syria and Iran, in violation of U.N. Security Council 
Resolution 1701, the resolution that led to the cessation of 
hostilities in 2006. Hezbollah violent actions against fellow 
Lebanese citizens in May 2008 provide a fresh reminder of the 
threat the group poses to peace and stability.
    Our position on Hezbollah remains unchanged. It was 
designated as a foreign terrorist organization in 1997. We see 
no distinction between the leadership and funding of the 
group's terrorist, military, political, and social wings.
    We share this committee's strong support for the Special 
Tribunal for Lebanon which opened on March 1. We are confident 
that the tribunal will bring the murders of Rafiq Hariri and 
other Lebanese to justice. The tribunal is an independent body. 
It should not be politicized, and we agree, Mr. Chairman, there 
will be no deals at the expense of justice.
    In terms of the Lebanese Armed Forces, we are encouraged 
the Lebanese state continues to strengthen its authority 
throughout the country, continues to expand its authority 
across all of the Lebanese territory with considerable help 
from Lebanon's international partners, including the Lebanon, 
in this regard particularly for the security services, and I 
want to thank again Congress for providing the resources to 
allow us to be a partner with the Lebanese Security Services.
    Our assistance to the Lebanese Armed Forces as helped it 
respond more quickly and effectively to isolated outbreaks of 
violence throughout the country, prevent additional rocket 
launches, and discover more arms caches in south Lebanon. Our 
partners in the Lebanese Armed Forces have proven highly 
professional and our assistance continues to be used 
responsibly and with exemplary end-use monitoring as noted in 
our regular reporting on this issue.
    As noted by the chairman and by some of you, I recently 
traveled to Syria with Dan Shapiro, who is the Senior Director 
for the Middle East and North Africa at the National Security 
Council. As Secretary Clinton stated, as many of you have 
urged, we are not engaging with Syria simply for engagement 
sake. Our policies toward Lebanon are unshakable. We hope to 
use continued dialogue with Syria, in fact, to press for the 
need for non-interference in Lebanon, to urge progress in 
unimplemented parts of Security Council Resolutions 1559, 1680, 
and 1701, and to address other pressing regional concerns such 
as Iraq.
    We do support Israeli and Syrian efforts to reach a peace 
agreement, and we also hope that Lebanon and Israel can find a 
mutually acceptable mechanism to address their outstanding 
issues, including full implementation of Security Council 
Resolution 1701. We are prepared to support any dialogue, any 
mechanism that the parties agree is acceptable. We are pleased 
to see, in fact, that Israel and Lebanon are already engaged 
indirectly through the U.N. over the situation in South 
Lebanon, including Ghujar, the village of Ghujar.
    But to repeat what the chairman said, as we invigorate our 
efforts to achieve a comprehensive regional peace, no deal will 
be made at Lebanon's expense.
    In conclusion, I would like to note that the pro-
independence forces in Lebanon tell us consistently of their 
appreciation for the clear support they receive from Members of 
Congress as demonstrated by many of your visits and your 
statements, and from the administration. That support, which is 
bipartisan, must continue. Along with its other partners, the 
United States will continue to support the Lebanese people in 
their goal of a fully sovereign democratic state where the 
Government of Lebanon is the one exercising control over the 
territory of Lebanon. This is a vital goal for the Lebanese and 
it will help achieve peace and stability throughout the region.
    Thank you for your time. It is a real honor for me to 
appear before you today, and I would be pleased to address your 
questions.
    [The prepared statement of Ambassador Feltman 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you. Ambassador, one of the issues that 
has provoked Syrian threats against Lebanon in the past has 
been the posting of international forces along the border of 
the two countries. At the same time we know by independent 
means that Syria continues to arm Hezbollah across its frontier 
with Lebanon, contrary to the mandate of the Security Council.
    The question is, what can the United States and what can 
the international community do to stop the flow of arms and to 
get Damascus to accept the delineation of the Lebanese/Syrian 
border?
    Ambassador Feltman. Mr. Chairman, you have touched on one 
of the biggest challenges we face in trying to support the 
implementation of Security Council Resolution 1701 that 
basically called for an end to all arms shipments to any group 
except for the Government of Lebanon.
    Those arms coming from Iran are also, of course, a 
violation of other Security Council Resolutions such as 1748 
that prohibits Iran from shipping weapons. These weapons not 
only have a destabilizing effect in the region but they 
endanger Lebanon itself. It is our firm belief, and we have had 
an ongoing dialogue with the Government of Lebanon about how to 
address this problem.
    It is not just the United States that is concerned. It is 
all of Lebanon's international partners. In fact, many of 
Lebanon's international partners came together in two ways: One 
was to support a Lebanon border assessment team, Lebanon 
international border assessment team from the United Nations 
that went out twice to study the problem you describe, and to 
identify possible fixes to this. The second thing that we did 
internationally was we came together to set up a model program 
for integrating Lebanon's security services, providing them 
support, technical assistance in order to build a border patrol 
regime starting on the north. That effort is still underway. 
But the big concern is to the east.
    We would urge that the problem begin to be addressed, first 
of all, by Iran and Syria complying with their obligations 
under the Security Council Resolutions, not to permit arms 
transfers to unauthorized groups in Lebanon, but second, to do 
the border demarcations you mentioned. To control the border 
you need to know where that border is. The Lebanese have stated 
their willingness to start that border demarcation immediately. 
They have reactivated their side of a joint border control. We 
would hope that Syria would respond in reactivating its side of 
the border control. I assure you this is one of the issues that 
we discussed when we visited Damascus a few weeks ago because 
this is a very, very serious concern and a real deficiency in 
the implementation of 1701.
    Mr. Ackerman. In mid-March, President Bashar Assad gave an 
interview in which he issued veiled threats against Lebanon 
should the Hariri tribunal reach the supposedly wrong 
conclusions, or should the March 14th coalition win the 
elections and actually attempt to govern as a democratic 
majority.
    Questions: Do you believe that violence remains a part of 
Syria's strategy for dealing with Lebanon? What can we do to 
put the Syrian regime on notice that interference with 
Lebanon's elections will have consequences? Is it a good idea 
to tell them now what those consequences would be, and do we 
even know what those consequences are?
    Ambassador Feltman. You know, our concerns with Syria, we 
have very, very serious concerns with Syrian behavior, and 
Lebanon is one area of those concerns. When Dan Shapiro and I 
went to Damascus, Lebanon, of course, is one of the issues we 
discussed.
    Although one doesn't normally talk about what happens in 
diplomatic channels, I will take the liberty to say that 
Foreign Minister Walid Moallem, Presidential Advisor Bethena 
Shaban, Deputy Foreign Minister Facil McDudd, assured us that 
Syria shares our goal for elections in Lebanon that are free 
and fair, where the Lebanese people are able to choose their 
own representatives in Parliament away from intimidation and 
violence. Those were words, those were a statement, but they 
were said in a very important official bilateral dialogue.
    All of us are very aware of problems in Lebanon as the date 
for elections approach.
    Mr. Ackerman. Let me just say that my time is up. The 
witness will be allowed to finish the answer, and I am trying 
to set a pattern. Please continue then.
    Ambassador Feltman. All of us are very aware of problems 
that have occurred in Lebanon in the past as elections 
approach. In fact, if you remember, the assassination of Prime 
Minister Rafiq Hariri happened just a few months before the 
scheduled 2005 legislative elections. All of us are watching 
this very, very closely.
    I will not speculate now on what the consequences would be 
of violence in Lebanon, but I am sure there would be an 
international reaction should these elections be marred in the 
same way that there was an international reaction in 2005.
    Mr. Ackerman. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Again, I am going to start off with this observation 
because it is something we forget, but it does not negate the 
fact of how tough we need to be, and that is, Syria did play a 
positive role years ago in helping end the conflagration that 
was causing so much bloodshed and seemed so out of control at 
that time. I remember that very well. And when dealing with the 
Syrians, I think that we need to, if we are going to make a 
deal with these guys that will protect Lebanon, we have got to 
make sure that they understand that we are not forgetting that, 
because that is something that is quite often they have a right 
to be proud of, that they helped stop that bloodshed and 
turmoil.
    Of course, since then their role degenerated into a very 
negative role in Lebanon, and I just would like to ask you 
this.
    We were talking about what we expect, we expect the border 
to be controlled and such, what can we offer the Syrians that 
will be--is there a quid pro quo that we can offer them? The 
fact that they say they want to have free elections in Lebanon, 
quite frankly, coming from the government that does not permit 
free elections in their country, that does not hold much weight 
with me. What quid pro quo can we offer the Syrians in order to 
bring peace to Lebanon?
    Ambassador Feltman. Congressman, if I can comment first on 
a more general part, noting how you opened your question, 
framing it and reminding us of the Syria role and helping to 
end Lebanon's tragic civil war.
    Mr. Rohrabacher. Right.
    Ambassador Feltman. I think all of us would welcome very 
positive ties between Syria and Lebanon. It is natural that 
these two neighbors should have very strong bilateral ties. 
There are economic reasons for doing so, there are family 
reasons, you know, people going back and forth. There are lots 
of historic reasons, cultural reasons. All of us would like to 
see very, very positive Syrian/Lebanese relations, relations 
that are based on the idea of mutual respect; relations that 
are based on diplomatic recognition which now has in fact 
occurred, and I think all of us were pleased to learn that the 
Syrians have now sent the request for Agri Mahon for the very 
first Syrian Ambassador to ever be posted in Lebanon. This is 
all good news.
    To the extent that you have normal relations between Syria 
and Lebanon, that is great, and Syria will have influence in 
Lebanon through the economy, through the family ties, through 
history. You know, we are not saying no Syrian interference, no 
Syrian influence in Lebanon. We are saying let it be a natural 
positive influence the way that the United States-Canadian 
relationship works.
    Mr. Rohrabacher. You know, Mr. Ambassador, that is a very 
good point, and I think it is important for us to make sure 
that we assure, reassure the Syrians that if there is a 
regional peace, they will prosper.
    Ambassador Feltman. Yes.
    Mr. Rohrabacher. And they will be part of that, and our 
goal, of course, is not to put Syria down; our goal is to bring 
a regional peace and bring about an environment where you can 
have democratic government. Perhaps they could have democratic 
government in Syria as well, I might add. So are you optimistic 
that that message can get through? Because I have heard that 
there is movement going on, we have all heard these rumors, is 
there movement going on toward that direction in----
    Ambassador Feltman. Toward democracy?
    Mr. Rohrabacher. No, no, toward Syria actually being 
willing to make the agreements, for example, the Golan Heights 
and the agreements about Lebanon that will bring about a 
regional peace.
    Ambassador Feltman. Well, you know, there were four rounds 
of indirect talks between Syria and Israel that took place over 
the course of the past year. They were brokered by Turkey. This 
is a positive sign of both Syria and Israel wanting to explore 
with each other how to get to a Syria-Israel track that is 
viable.
    The President and the Secretary, I think, Congress, would 
like to see a comprehensive peace in the Middle East. That has 
been a bipartisan policy for many, many administrations. So to 
the extent that you can get a Syria-Israel track going, not at 
Lebanon's expense, I think that is all positive. I think that 
is what the Syrians are looking for us to help broker.
    Mr. Rohrabacher. We need to be very tough on one side and 
very open-handed on the other, and I would hope, and Mr. 
Ambassador, I want to congratulate you and thank you for what 
you personally have done and used your influence to try to see 
that there are positive changes in that region. You have 
dedicated your life to these things, and those of us--that has 
not escaped us here in Congress.
    Ambassador Feltman. Thank you.
    Mr. Rohrabacher. So thank you very much.
    Ambassador Feltman. Thank you, Mr. Rohrabacher.
    Mr. Ackerman. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Ambassador.
    Regarding Hezbollah, what concrete steps do you think the 
Lebanese leaders can take internally to help promote 
disarmament of Hezbollah?
    Ambassador Feltman. I think the question of Hezbollah 
actually requires larger thinking than simply inside Lebanon. I 
think the Lebanese have a responsibility, but it also requires 
the international community and regional partners to work 
together.
    The goal, I think, should be that all parties in Lebanon 
compete democratically through elections, through normal means, 
and that you do not have one party that is able to change the 
equation by threatening its arms or intimidating others because 
people know they have these kinds of arms.
    The Lebanese Government has taken some important steps 
since 2006, such as redeploying the Lebanese Armed Forces to 
the south. For the first time since the late sixties the 
Lebanese Armed Forces are present on Lebanon's south border, 
and if you look at the number of incidents, security incidents 
between Lebanon and Syria, they are at their lowest level from 
2006 until now compared to the period from 2000, Israel's 
withdrawn from south Lebanon until the war in 2006.
    The Lebanese have also committed themselves to a national 
dialogue process to discuss how to best defend Lebanon, how to 
build up the Lebanese institutions that can provide for 
Lebanese security. I do not think there is an easy answer from 
today until tomorrow. It also requires work on the part of 
Syria and responsible behavior on the part of the Iran.
    I am optimistic that we are headed in the right direct. The 
biggest enemy to Hezbollah's arms is a strong, viable, 
responsible, accountable Lebanese state, and I think that is 
what the international partners are trying to do in helping the 
Lebanese establish.
    Mr. Ellison. Thank you. In that same regard, strengthening 
cities and rural areas outside of Beirut center is an important 
task to reducing popular support of armed militias operating 
outside the mandate of the central government, such as 
Hezbollah and other extremist organizations. How can the 
Lebanese Government continue to strengthen cities and rural 
Lebanon so that they can have their own free-standing, strong 
institutions?
    Ambassador Feltman. It is an excellent question. You have 
pointed out something that not only gives Hezbollah strength, 
but also allows other sort of more traditional leaders or other 
groups to get loyalty of constituencies at the expense of 
government institutions.
    I mean, I think what the international community is trying 
to do in response to requests from Lebanese officials, Lebanese 
members of Parliament, Lebanese civil society leaders, is help 
strengthen government institutions at the national level all 
the way down to the local level so that they are transparent, 
they are accountable, they are responsible so that the Lebanese 
feel that if they need protection their state can protect them.
    If they need water supply, utilities, they can go to their 
municipal officials and get them. They do not have to go to 
tribal leaders, to communal leaders. They can rely on the 
government.
    All of us are trying to help the Lebanese build the state 
institutions, the municipal institutions, that a democracy 
requires to thrive, and I do think we have made some progress 
there. With the support of Congress, we have some very good 
programs working with municipal government to make them more 
transparent, to do constituent outreach so that the local 
citizens can see what they are doing. We are working on 
improved water resources in the south in a way that the 
constituents can see that their government is delivering. These 
are the sorts of activities that I believe the international 
community is right to support with the Government of Lebanon, 
and I am very proud that we as the United States have been 
participating in this effort.
    Mr. Ellison. And with my remaining seconds, Mr. Ambassador, 
you know, there is recently a report in the news about two 
Palestinian leaders who were killed in Lebanon. What can you 
tell us about that? What are the dynamics there, and what was 
at play?
    Ambassador Feltman. I can comment on one. I am not familiar 
with the second, but one that was killed was the second ranking 
PLO official in Lebanon, a guy named Kamel Medhat. He was known 
for his moderation of trying to negotiate between Palestinian 
factions in these Palestine refugee camps. He was PLO, he was 
Fatah, so he was sort of mainstream Palestinian trying to bring 
others on board to prevent violence from occurring in these 
Palestinian refugee camps, or worse, violence from spreading 
from the refugee camps outward, and I can only think that 
whoever decided to murder him using an explosive-laden car, 
like so many other assassinations in Lebanon, did not have the 
best interests of Lebanon or the Palestinian refugee camps at 
heart because he was--as I said, he was the one that was trying 
to find nonviolent ways to address Palestinian concerns.
    Mr. Ackerman. Thank you. Mr. Burton in person.
    Mr. Burton. In person. Thank you, Mr. Chairman. It is nice 
being with you.
    I have been very concerned about Syria for a long, long 
time because they appear to be the conduit for weapons coming 
in from Iran into Hezbollah and Hamas, and Hamas's headquarters 
is in, I believe, Damascus.
    What, if anything, can we do to convince Syria to become a 
member of the nations of the world who believe in freedom and 
democracy, and to stop this support for Hezbollah and Hamas? 
And what can we do to get them to change their policies toward 
Israel? If you can give me the answer to that, it is like 
cutting the Gordian Knot, but I would just like to hear your 
opinion. Tough question, huh?
    Ambassador Feltman. It is a tough question, and if you look 
at Syria in behavior in some ways they have tried to have it 
both ways, because they have in fact engaged on these indirect 
talks with Israel over the past year. Israel and Syria via 
Turkey had four rounds of indirect talks where they went into 
quite some detail about how they might move forward toward a 
peace agreement between the two, and I am sure that security 
issues like Hezbollah and Hamas were among the issues that were 
discussed in these indirect talks.
    So on the one hand Syria has been willing to show that it 
will engage at least indirectly with the Israelis, and, in 
fact, President Assad has referred that he is even willing to 
do this directly at some point. On the other hand they are, in 
fact, the conduit for the armed shipments to Hezbollah, and 
also host the Hamas political leaders who have been clear in 
their rejection of the conditions that would lead the 
Palestinian reconciliation, the condition that would lead to 
real Israeli-Palestinian peace. So I agree with you, they are 
playing a double role right now.
    One of the reasons why the President and the Secretary 
asked Dan Shapiro and me to go to Damascus was to start talking 
about moving on the positive side, moving away from the less 
constructive behavior that they have been engaging in. It was 
one round of talks. I cannot say that we have found the secret 
to untangling this Gordian Knot after one 4-hour meeting, but 
nevertheless it was in the spirit of your question that the 
President asked us to go.
    Mr. Burton. The President has indicated he would like to 
talk to the leaders of almost all of the Middle Eastern 
countries, in particular, Iran and Syria. What do you think 
should be the preconditions before the President does that?
    He gave a speech, I think, last week almost directly to the 
people in Iran, and he was rebuked by, I think, one of their 
cleric leaders, the Ayatollah Khomeni, the Supreme Leader of 
Iran. He said that Obama has insulted the Islamic Republic of 
Iran from the first day. So this was after President Obama made 
those overtures to the Iranian people.
    What do you think that this country and this administration 
should do to try to open a dialogue, if they should, and what 
should the conditions be not only for Iran but also Syria?
    Ambassador Feltman. Well, I do not believe that engagement 
is soft. I do not believing that talking has to be a sign of 
weakness. Talking is one tool.
    In terms of Iran and Syria----
    Mr. Burton. Let me just interrupt you a little bit.
    Ambassador Feltman. Yes.
    Mr. Burton. There is a number of people in the Congress, 
myself included, that believe unless the conditions are very, 
very stringent that talking to Iran is a sign of weakness to 
them, and that they are going to gain from just the very fact 
that the talks are taking place. So what I am trying to figure 
out is what should be the parameters and why should we be 
talking to them until there is something to talk about?
    Ambassador Feltman. I think that the Supreme Leader's 
reaction that you quoted indicates that they are not looking at 
talking as a sign of weakness on our part. The fact that he has 
to make some critical comments about what was a New Year's 
greeting indicates that they are a little off balance by this.
    I would advocate that we----
    Mr. Burton. Let me just, because my time has run out, I do 
not agree with that assessment at all. I think that they are 
very recalcitrant, and I think they see a discussion with any 
of our leaders without very strong preconditions that deal with 
the problems in the Middle East would be a sign of weakness and 
it will be an encouragement to them.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and welcome, 
Ambassador. It is great to have you here. I wanted to just 
start with a comment and really see the time is a great 
opportunity to reengage. I think like many of my colleagues and 
many Lebanese-Americans that I represent, you know, we hope to 
see a rebirth in the post-civil war Lebanon. So it is great to 
have you here.
    In terms of what we can do to strengthen the consensus 
government and Lebanese institutions, two in particular that I 
wanted I wanted to ask about, and one is, first, the Lebanese 
Armed Forces. You were here back in July of last year before 
the committee. You noted that the expansions of U.S. assistance 
to the LAF was to make long-term investment in the state of 
Lebanon, the security of the state in the national institution 
that enjoys almost universal respect among the Lebanese.
    Can you tell us today if we have seen any improvement in 
the LAF performance since you were before us last year, and in 
terms of how we should support that going forward?
    Ambassador Feltman. Thank you. Thank you, Congressman 
Carnahan.
    The reaction of the Lebanese Armed Forces during the events 
in Gaza in January I think was illustrative. There was 
incredible pressure throughout the Middle East on moderate 
governments by what was happening in Gaza. You may remember 
hearing more radicals trying to attack moderate leaders and 
saying, now wait a minute, we should be part of this fight. We 
should be siding with the Palestinians who are under seize in 
Gaza. We should be getting involved.
    Of course, moderate leaders in the Arab world realized 
that, no, what in fact we needed to do was to try to get back 
to a cease fire and get back onto a viable peace process, but 
there were elements trying to rile the street in a different 
direction.
    This pressure, of course, was felt in Lebanon where there 
are 400,000 Palestinian refugees living in camps in Lebanon. 
There were, in fact, it was two or three, I believe it was 
three rockets fired from south Lebanon into Israel during the 
Gaza crisis. This risked putting Lebanon and Israel at war 
again.
    The Lebanese Armed Forces, working with UNIFEL, immediately 
stepped up their patrols. They immediately issued statements 
along with the Lebanese President, the Lebanese cabinet, 
unanimously on the part of the Lebanese cabinet, showing their 
support for 1701, their commitment to the Resolution 1701 that 
provided for security and stability in south Lebanon. There 
were no further rocket attacks in south Lebanon.
    This is one example of the Lebanese Armed Forces stepping 
up to its responsibility to secure the south Lebanon border 
where the Lebanese Army had been absent from the late sixties 
all the way up until the fall of 2006.
    There is a long way to go, but I repeat what I said back 
almost a year ago, which is, the Lebanese Armed Forces is the 
national institution in Lebanon that everyone takes pride in. 
There is not a Shiia unit, a Maranite brigade. This is a cross 
confessional organization that every family, every community is 
part of.
    Mr. Carnahan. If I could, I want to cut you off because I 
have one more institution that I want to ask about.
    Ambassador Feltman. Yes.
    Mr. Carnahan. And that is the American University in 
Beirut, in terms of opportunities there to use that institution 
going forward in terms of better repairing them for success.
    Ambassador Feltman. I have tremendous success for the 
American University of Beirut. You know, it is one of the 
outstanding institutions of education in the Middle East, and 
it is something I think that we can all be proud of from the 
legacy of American benevolence from the Nineteenth Century.
    I had the opportunity last night, in fact, to meet the new 
president, new for me, he has been in the office a few months, 
but the new president of the American University of Beirut, and 
the U.S. Congress has been extremely generous in supporting the 
American University of Beirut over the years, and I expect that 
support will continue.
    But we work with the American University of Beirut in a 
variety of ways, but we also have to keep a little bit of a 
hands-off role from AUB because it is a private institution. It 
is not part of the U.S. Government. So we support AUB while 
also letting AUB thrive as an independent academic institution.
    Mr. Carnahan. Thank you.
    Mr. Ackerman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Ambassador, a lot of subjects to go through, and I will try 
to be quick and brief, but let me start in reverse order with 
AUB. Historically, AUB has had a total support in the words of 
the United States both at the administration level and at 
Congress's level, but they have often had to be ear-marked, a 
word that has become a little distasteful. Do you expect this 
administration to provide funding without separate ear-marks 
from the Congress for AUB?
    Ambassador Feltman. I would expect that we would have 
consistent support for AUB. It is in our interest to see that 
institution thrive.
    Mr. Issa. I appreciate that. I am glad to hear it.
    The history of military equipment, and it is leading 
question, but I hope you will appreciate in the vein that it is 
given, is when I go to Lebanon and I see M-113s that were from 
before I started in the army in the 1970s. Is it relatively 
true or completely true that no major piece of equipment has 
ever been lost by the Lebanese Armed Forces through all these 
years that was entrusted to them through our aid programs?
    Ambassador Feltman. You are asking me easy questions, 
Congressman, but it is true. The Lebanese Armed Forces has one 
of the best track records in the world for this. Our end-use 
monitoring has revealed no deficiencies.
    Mr. Issa. Excellent, and I appreciate that because we do 
have some portion of that $1 billion still backed up and not 
yet delivered to them.
    Probably one more softball, and that is, is there a win-win 
in your opinion dealing with the Latani and the Hezbani River 
to try to bring water to the south while at the same time 
allowing more water to flow into Israel if we are able to 
eventually engage in those projects in some construction way? I 
know that has always been a ``can we go that far south'' 
question.
    Ambassador Feltman. This is far from a softball question, 
Congressman.
    Mr. Issa. Water never is easy even in Southern California.
    Ambassador Feltman. Yes, we had a program with the Latani 
Water Authority several years back that we have now recently 
reinvigorated. It is extremely important for all the regions of 
the Middle East, but particularly in that part of Lebanon to 
utilize the resources that are available to their fullest 
extent. We are looking at waste water treatment, waste water 
reuse. We are taking a comprehensive approach of how to better 
utilize the resources available in south Lebanon, but it is 
about Lebanon. This is part of our program for Lebanon.
    What we are doing is to help provide resources, better use 
of resources inside Lebanon is what our----
    Mr. Issa. No, and I appreciate. I only brought up the 
question of Israel because there was some threat of bombing a 
pumping plant some years ago based on Israel's belief that 
Speaker Berry had funded a project that might be denying them 
some water, and that sensitivity, I think, hit the press.
    During the 2006 war and also during the run-up to the 
election or determination and election of the President, there 
was an attempt by a number of groups to sort of tear at the 
fabric of Lebanese society, and certainly to us on the outside 
it appeared to fail. Can you confirm that in fact all these 
attempts to tear apart the Lebanese and put them back into 
civil war have consistently failed?
    This is mostly a question of are they durable running up to 
the parliamentary elections?
    Ambassador Feltman. It is worth going back to that spring 
of 2005, or February 2005. The most powerful political figure 
in Lebanon was assassinated. The strongest Sunni leader in 
Lebanon was assassinated. The most renounced figure on the 
international stage in Lebanon was assassinated when Rafiq 
Hariri was killed on February 14th.
    I expect that whoever did that thought that it would scare 
the Lebanese, perhaps send them into civil war, but it would 
derail the elections that would come up. What happened instead, 
the Lebanese people pulled together, the international 
community pulled together and in fact the Syrians had to leave 
Lebanon at the end of April, and there were free and fair 
elections at the end of May and June of that year.
    I think the Lebanese people have pulled together 
repeatedly. There have been security breaches. There have been 
other assassinations. There have been murders of followers of 
certain political leaders, and every time this has happened, 
with the exception of May last year, May last year was an 
exception, but all these security incidents have not in fact 
led to broader civil war. They have lead to the Lebanese 
stepping back and saying, now wait a minute, let us solve our 
differences through democratic means, not through violence.
    Mr. Issa. Mr. Chairman, if I could have your indulgence 
just for one quick follow-up question.
    Mr. Ackerman. We will allow that in a moment----
    Mr. Issa. Of course.
    Mr. Ackerman [continuing]. If I get a positive response 
from the Ambassador.
    Mr. Issa. Yes.
    Mr. Ackerman. We have each had our turn. Your appearance 
was highly heralded and you did not disappoint. If you would 
agree, I would go one more round, of one question each, with 
the members of our panel, and if my colleagues will indulge Mr. 
Issa, I will let him take his question with his follow up.
    Ambassador Feltman. That is fine.
    Mr. Issa. Thank you all. Mr. Ambassador, cluster bombs from 
the 2006 war, an estimated 1 million of them that some portion 
of them are still are in the south, mostly in the south of 
Lebanon and serve as sort of bad examples of land mines because 
they are not designed to go off or not go off at a particular 
time. Can you give us a progress report, and two other portions 
to it; not only how well are we doing but what effect is it 
having, and what do you think more that Congress should do to 
deal with the residue of that war?
    Ambassador Feltman. As, of course, you know I was in 
Lebanon during that war and for the first, I guess, 18 months 
after that war, and it was tragic to witness the civilian 
casualties during the war and that continued on after the war.
    I am glad that we have been able to respond with the 
support of the congressional appropriations. We have so far 
provided over $15 million, $15.5 million or something for the 
clean up of what they call ERW, the explosive residue of war, 
and $13 million of that has gone directly to the mine advisory 
group to actually do the clean up.
    But I think a more important part of it is $2.5 million 
that has gone to the Lebanese Mine Action Center because this 
is about building capacity for the Lebanese because, 
unfortunately, the mines and the cluster bombs were not only 
from that 2006 war, which we are addressing systematically, but 
there is also all sorts of unmarked mines remaining from the 
civil war, and so by building up the capacity of the Lebanese 
themselves to clean it we hope we can keep the effort beyond 
just the south and the 2006 war.
    The other thing, of course, is we have always encouraged 
the Israelis to share all their strike data with the U.N. The 
Israelis have told us that they have shared strike data on two 
occasions, including the data that they provided to their own 
troops when they were withdrawing in 2006.
    I took note in the Secretary General's most recent report 
on Lebanon, his most recent 1701 report, that there is a 
reference to the possibility of Israel providing more strike 
data. I do not have any way to confirm that now, but it would 
be encouraging if it is true.
    In terms of the actual clean up and progress report, much 
of the south has been clean, but there is still additional 
discoveries of cluster munitions, so it still does provide a 
danger.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you.
    Ambassador, Hezbollah and Syria have said that regardless 
of who wins the election in June, that Lebanon should have a 
government of national unity; one wherein the minority 
possesses a blocking third. In other words, the ability as they 
have now to veto all major government initiatives.
    The ruling March 14th Coalition was compelled in May 2008 
to accept this condition, but does not presently seem to have a 
cohesive position on that issue. The majority leader Saad 
Hariri has announced that his Future Movement would not 
participate in a Hezbollah-led government, but leaders of the 
other parties have indicated that they are nonetheless open to 
the idea.
    My question: Does the Obama administration have an opinion 
or a position on this question?
    Ambassador Feltman. Mr. Chairman, if you will indulge me, I 
will give what I think is--I will give you the position, but I 
would also like to offer a personal observation on this.
    Mr. Ackerman. We would appreciate that.
    Ambassador Feltman. The position is that the Syrians should 
not be talking about this; that none of us should be talking 
about this; that this is what the Lebanese should be deciding. 
Our whole policy has been bipartisan. Congress and the 
administration for the past several years has been the Lebanese 
need to decide what is best for Lebanon.
    We have worked to create the atmosphere internationally in 
which the Lebanese have the space to maneuver, the room to 
maneuver to make these decisions for themselves.
    So, first and foremost, it is a decision for the Lebanese 
to make. Whatever they----
    Mr. Ackerman. That is assuming they have the space.
    Ambassador Feltman. Yes, and it is important for us to keep 
the space by emphasizing and finding ways to keep that space 
open.
    My personal observation is that for those who advocate this 
national unity-type government that you describe that exists 
now, I would hope they would be telling their friends that are 
in the Government of Lebanon now to make this government work. 
If people believe that this is an ideal solution for Lebanon, 
it does not seem to be operating ideally in practice because 
the idea of having consensus for all government decisions has 
led in what is my personal view to many, many blockages in the 
work of the government.
    Mr. Ackerman. Thank you. Mr. Rohrabacher, for one question. 
No semi-colons, complex clauses or Part B. [Laughter.]
    Mr. Rohrabacher. So we have determined that it would be, in 
the last round, that we would be well served by trying to 
convince, if we could, Syria to serve their own interest by 
becoming a very positive player than a negative player, in the 
long run that would serve--there is your carrot, okay? Now I am 
going to ask you about sticks, because I have noted that 
sometimes when you are dealing with tough guys, rather than 
democratic leaders, which is what we are dealing with in Syria, 
the tough guys sometimes only understand the sticks, and the 
fact that you are willing to use them.
    My read from their testimony is that we have gone Iran in a 
relationship with Syria, which has a relationship with 
Hezbollah and Hamas, which is a negative influence in Lebanon 
and in fact Syria has a direct negative influence in Lebanon.
    So what are the sticks that we can use--first of all, Syria 
is a poor country, it does not have water and power sufficient, 
so it is a very relatively vulnerable country that way, what 
sticks would you suggest that we use if they are not convinced 
out of positive arguments please join the family of nations so 
we can all prosper and live at peace and there will be harmony 
in this area, that they are not swayed by that, what sticks can 
we use to pry Iran and Syria apart because obviously being a 
poor country Syria depends on Iran, and then how can we make 
sure that we pry apart Hezbollah and Hamas from Syria, and what 
sticks would we use to accomplish that?
    Ambassador Feltman. You know, I do not believe that many 
countries would envy being in the position Syria is in right 
now. Syria's best friend is Iran. Who are Iran's friends? 
Nobody seems to trust Iran in the region or globally. There are 
people who deal with Iran, but there is a lot of distrust based 
on Iranian misbehavior domestically, regionally, 
internationally.
    You know, there are a number of sanctions, designations 
that Syria belabors under now that Iran also is under. Syria is 
designated as a state sponsor of terrorism. These are fairly 
significant measures that are existing in the relationship with 
Syria now.
    I do not know if we will succeed in convincing Syria by 
words that it is worth changing direction, looking at different 
things. But I also do not think it is a sign of weakness to 
try. The Syria-Israel track that the Turks were promoting is a 
very intriguing, is a very intriguing one. We have long said we 
want a comprehensive peace in the region. That means peace 
between Israel and all of its neighbors. I d not believe you 
can get to a peace between Israel and Syria as long as you have 
Syria giving the sort of support to Hezbollah and Hamas that it 
is giving now.
    Mr. Rohrabacher. I take it you do not have any sticks from 
what you are saying.
    Ambassador Feltman. I am not using that language, but I 
would say look at the--look at the context in which the 
relationship with Syria is operating now.
    Mr. Rohrabacher. Let me give you one thing and then I 
will----
    Mr. Ackerman. We are trying not to go into----
    Mr. Rohrabacher. Just one last thing.
    Mr. Ackerman. You are doing good.
    Mr. Rohrabacher. Thank you, Mr. Chairman. [Laughter.]
    How about if the non-democratic Government of Syria 
continues to be playing a negative role rather than coming over 
and joining us and trying to play a positive role, how about if 
we support people who want to overthrow the Government of 
Syria?
    You know, maybe they might be willing to compromise more if 
we were willing to put that kind of pressure on them, the same 
with the mullahs in Iran. I am not talking about invading their 
country. I am talking about supporting the democratic elements 
within those countries.
    Mr. Ackerman. I had a no-hitter going, and you threw a 
spitball.
    Mr. Rohrabacher. I will just leave it with that. Thank you 
very much, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Burton.
    Mr. Burton. I want you, Mr. Chairman, to define what one 
question is one of these days. [Laughter.]
    That sounded like to me it was a small book. Anyhow, I do 
not mind. I thought they were good questions. I do have one 
question.
    You know, if we are talking about our leadership on this 
committee, or the White House, or the leaders like yourself or 
people in the State Department, if we believe that the 
leadership should talk to Syria about them becoming a non-
terrorist state and becoming a member of the family of nations 
and helping solve the problems not only with Syria, but Lebanon 
as well, should we not prior to any kind of discussions, talks 
or meetings request, require that Hezbollah and Hamas be 
removed from Syria as not only irritants but a problem for the 
entire Middle East and particularly Israel, and also since 
Syria wants us to facilitate Israel giving the Golan Heights 
back, should not all those things be part of some kind of 
agreement before we have talks of a high level?
    Ambassador Feltman. Congressman Burton, let me be clear. 
Our policy is that Syria should stop supporting Hezbollah, 
Syria should stop facilitating arms and financial transfers----
    Mr. Burton. But that has not in any way slowed down the 
movement toward talking with Syria. I mean, we have had a, and 
I am not criticizing my colleagues, but a number of my 
colleagues have gone over there from this committee and others 
to meet with Assad, and there was pretty much with no 
preconditions. So what I am saying is should there not be 
something pretty well understood before they make these high-
level talks, in particular, with the President, before any of 
that takes place?
    Ambassador Feltman. The approach the administration is 
taking right now is to see if we can use talks along with the 
other tools we have to try to get to the same policy goals. We 
share the same policy goals you describe. Syria should stop 
supporting Hamas and Hezbollah. Syria should play a 
constructive role in the region.
    We have a number of tools at our disposal, diplomacy is one 
of them. Talking is one of them. It is not a tool of softness 
or of weakness. It is a way to see if we can use a different 
tactical approach to achieve the same goals.
    One of the reasons, in fact, my own trip to Damascus went 
the way it did was to be able to demonstrate that our 
underlying policies are not changing just because we are 
talking to Syria. I went to Beirut first. I wanted to see a 
number of Lebanese leaders to talk to them not only about 
Lebanese elections, things we have talked about today, but also 
to talk to them about our discussions with Syria; what we were 
trying to achieve. We were not going to make a deal at 
Lebanon's expense. We were not going to let Syria off the hook 
for Hezbollah.
    I then went to Damascus with Mr. Shapiro. Then returned to 
Beirut to show again that even though tactically we are 
employing a different tool than we may have employed a year or 
2 ago, that the basic policy goals of supporting a Lebanese 
state, of supporting a Palestine reconciliation, that under the 
Cortex principles, that trying to stop the arms to Hezbollah, 
these policy goals remain the same.
    Mr. Burton. Mr. Chairman, let me just say this; that my 
wife is from that part of the world, and I would like to go to 
Lebanon and Syria, and I know she would, her family is over 
there, and if we can ever reach some kind of an agreement on 
the preconditions for these discussions so that the United 
States will not look or appear to be weak and caving in, then I 
will be one of the guys that will be wanting to go, but at the 
present time I still feel, Mr. Chairman, that those 
preconditions have not yet been met and we should not be doing 
anything until they are.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you, Mr. Burton.
    Ambassador, thank you for agreeing to be our witness here 
today and appearing without any preconditions. [Laugher.]
    We thank you for your service, your major contribution to 
our discussion, and for your continuing service to our country.
    Ambassador Feltman. Thank you.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
